ORIGINAL

it

Supreme Court, U.S.
FILED

OCT I 3 2020
NO.

OFFICE OF THE CLERK

In The
SUPREME COURT OF THE UNITED STATES

DOUGLAS D. YOKOIS,
PETITIONER,
V.

DAVID C. SHINN, DIRECTOR,
ARIZONA DEPARTMENT OF CORRECTIONS,
REHABILITATION, AND REENTRY
and
MARK BRNOVICH, ATTORNEY GENERAL
OF THE STATE OF ARIZONA
RESPONDENTS.

On Petition for a Writ of Certiorari to the
Ninth Circuit Court of Appeals

♦
PETITION FOR WRIT OF CERTIORARI
AND APPENDICES

♦
Douglas D. Yokois ADC #240176
ADCRR, ASPC Eyman, SMU I West
P.O. Box 4000
Florence, Arizona 85132
Petitioner In Propria Persona
October 10,2020

QUESTIONS PRESENTED
Whether the Ninth Federal Circuit Court of Appeals improperly denied
Petitioner’s Motion for Issuance of Certificate of Appealability (hereinafter,
“COA”).

A Certificate of Appealability was a prerequisite to Petitioner

submitting a formal appeal of the District Court’s summary denial of relief on
the claims asserted in Petitioner’s 28 U.S.C. § 2254 habeas corpus petition.
The United States District Court for the District of Arizona issued a 4-page
final Order (Doc.28), adopting the August 5, 2019 9-page Magistrate’s Report
and Recommendation (Doc.17) (see Doc.28, at page 4, line 15) and denying
Petitioner’s request for a COA (see Doc.28, at page 4, lines 17-19). Upon
application to the Ninth Federal Circuit Court of Appeals, the Ninth Circuit
issued a 1-page Order summarily denying Petitioner a COA (Dkt.5) on July 13,
2020 (“The request for a certificate of appealability (Docket Entry No. 4) is
denied because appellant has not shown that ‘jurists of reason would find it
debatable whether the petition states a valid claim of the denial of a
constitutional right and thatjurists of reason wouldfind it debatable whether the
district court was correct in its procedural ruling. ’ ”). See Dkt.5, at page 1, f 1.
Importantly, there is an underlying question of whether the miscarriage ofjustice
exception to an untimely habeas corpus petition should be subject to an
interpretation applying to conviction and sentencing such as occurred in this case.

-l-

PARTIES TO THE PROCEEDING
All parties appear in the caption of the case on the cover page.
Douglas D. Yokois, ADCRR # 240176, Petitioner on Certiorari, was the
petitioner-appellant in the Ninth Circuit Court of Appeals and the U.S. District
Court.
David C. Shinn, Director of the Arizona Department of Corrections,
Rehabilitation and Reentry (ADCRR), and Mark Bmovich, Attorney General of
the State of Arizona, were the Respondents-Appellees in the Ninth Circuit Court
of Appeals and the U.S. District Court.

-U-

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED

1

PARTIES TO THE PROCEEDING
TABLE OF CONTENTS

11

in

v

INDEX TO APPENDICES
TABLE OF AUTHORITIES

vi

PETITION FOR WRIT OF CERTIORARI

1

OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL PROVISIONS INVOLVED

3

INTRODUCTION

4

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT

9

I.

REASONABLE JURISTS — INCLUDING THE
JUSTICES OF THE UNITED STATES SUPREME
COURT — HAVE ALREADY HELD THAT
DENIAL OF INVESTIGATION INTO EVIDENCE
OF ACTUAL INNOCENCE, DENIAL OF A JURY
TRIAL, AND DENIAL OF THE RIGHT TO THE
CONSTITUTIONALLY REQUIRED STANDARD
OF PROOF OF BEYOND A REASONABLE
DOUBT MAKES A "SUBSTANTIAL SHOWING
OF THE DENIAL OF A CONSTITUTIONAL
RIGHT’ AND THEREFORE PRESENTATION
OF THOSE GROUNDS WAS AT LEAST
"ADEQUATE TO DESERVE ENCOURAGEMENT
TO PROCEED FURTHER"....................................

-in-

9

II.

A.

PETITIONER’S ASSERTION OF ERRORS IN
THE DISTRICT COURT’S ORDER AND
JUDGMENT............................................................

12

Overly Rigid Approach to Certificate of
Appealability Rejected............................................

12

The Issue of the Timeliness of the Habeas
Petition............................................................

13

1.

a)
b)

B.

The Miscarriage of Justice Exception to
the Untimeliness of a Petition............

14

It Is Correct that Martinez v. Ryan, 566
U.S. 1 (2012) is Inapplicable to the
Petition in this Case, but Martinez Was
Cited for an Ancillary Purpose..........

16

The District Court’s Conclusion Were Incorrect
1.
2.
3.

17

Petitioner’s Presentation Was Not Merely
“Conclusory”............................................................

18

Petitioner’s Presentation of Fundamental
Flaws ..............................................................

19

Petitioner’s Presentation Addressed an
Alternative Form of Clear Evidence of
Actual Innocence, Which Included A Claim
of Structural Error.........................................

21

CONCLUSION

26

STATEMENT OF COMPLIANCE

28

-IV-

INDEX TO APPENDICES
Appendix A

Ninth Circuit Order Denying COA

Appendix B

U.S. District Court Order Adopting Report and
Recommendation and Denying COA

Appendix C

U.S. District Court Magistrate’s Report and
Recommendation

Appendix D

Petitioner’s Objection To Magistrate’s Report and
Recommendation

-v-

TABLE OF AUTHORITIES
Pages
CASES
UNITED STATES SUPREME COURT CASES
Apprendi v. New Jersey, 530 U.S. 466 (2000)
Arizona v. Fulminante, 499 U.S. 279 (1991)

22,23,24

21

Banks v. Dretke, 560 U.S. 668 (2004)

11,12

Dretke v. Haley, 541 U.S. 386 (2004)

13

Holland v. Florida, 560 U.S. 631 (2010)

11

JaeLee v. United States, 582 U.S. _, 137 S.Ct. 1958 (2017)

23,24

iv, 15,16

Martinez v. Ryan, 566 U.S. 1 (2012)
McQuiggin v. Perkins, 569 U.S. 383 (2013)
Miller-El v. Cockrell, 537 U.S. 322 (2003)
Murray v. Carrier, 477 U.S. 478 (1986)

13,14
9,10,12
13,22

Sawyer v. Whitley, 505 U.S. 333 (1992

13

Slack v. McDaniel, 529 U.S. 473 (2000)

10

Schlup v. Delo, 513 U.S. 298 (1995) ..

13,14

OTHER FEDERAL CASES
Burks v. Dubois, 55 F.3d 712 (1995) (1st Cir.1995)..............

22

Martinez v. Schriro, 623 F.3d 731 (9th Cir.2010)..................

19

Mayfield v. Woodford, 270 F.3d 915 (9th Cir. 2001 (en banc)

9,10

Morris v. Woodford, 229 F.3d 775 (9th Cir. 2000 ................

9

-vi-

Summers v. Schriro, 481 F.3d 710 (9th Cir. 2007)

8

ARIZONA CASES
State v. Cleere, 213 Ariz. 54, 138 P.3d 1181
(App.2006,Div.2), rev. denied (June 27, 2006) ..............

7

State v. Maldonado, 206 Ariz. 339, 78 P.3d 1060 (App.2003),.

21

State v. Ward, 211 Ariz. 158, 118 P.3d 1122 (App.2005,Div.l)
(as amended 09/08/2005), rev. denied 04/20/2006 ........

7

State v. Henderson, 210 Ariz. 561, 115 P.3d 601 (2005) ........

21

State v. Ring, 204 Ariz. 534, 65 P.3d 915 (2003)......................

21

State v. Stephen Lee Noble, 216 Ariz. 180,
164 P.3d 686 (App.2007, Div.l).....................................

21

CONSTITUTIONAL PROVISIONS
UNITED STATES CONSTITUTION
U.S. Constitution

3,21

Fifth Amendment

3,8

Sixth Amendment

3,8
3,8,19

Fourteenth Amendment

19

Due Process
ARIZONA CONSTITUTION

7,21

Arizona Constitution

7

Ariz. Const, art. 2, § 24

-Vll-

STATUTES
United States Code
5 U.S.C. § 6103

2

28 U.S.C. § 1254(1)........

2

28 U.S.C. § 2101(c) ....

2

28 U.S.C. § 2244(d)(1)(A)

8

28 U.S.C. § 2253(c)(2)

9,10

28 U.S.C. § 2254

i

28 U.S.C. § 2254(e)(2)

17,18,19

RULES
Rules of the Supreme Court of the United States
Rule 13(1)

2,3

Rule 29(2)

2

Rule 30.1

2,3

Rule 33.2(b)

27

Arizona Rules of Criminal Procedure
Rule 32

8

-Vlll-

In The
Supreme Court of the United States

Petition for Writ of Certiorari

Petitioner Douglas Yokois respectfully petitions for a writ of certiorari
to review the judgment below, i.e., the Ninth Circuit Court of Appeals, with
respect to that court’s denial of a certificate of appealability regarding the claims
asserted by Petitioner in his United States District Court Petition for Writ of
Habeas Corpus.
OPINIONS / DECISIONS BELOW
The Decision of the Ninth Circuit Court of Appeals denying Petitioner’s
motion for issuance of a Certificate of Appealability is not reported, and a copy
is attached hereto as Appendix A. The Order of the U.S. District Court adopting
the Magistrate’s Report and Recommendation and denying a Certificate of
Appealability is unreported and a copy is attached hereto as Appendix B. The
Magistrate Judge’s Report and Recommendation is unreported and a copy is
attached hereto as Appendix C. Petitioner’s Objections to the Magistrate’s
Report and Recommendation is unreported and a copy is attached hereto as
Appendix D.
JURISDICTION
The unpublished decision of the Ninth Circuit Court of Appeals was filed
July 13, 2020, (Dkt.5). No motion for rehearing was filed in that court. Within
-1-

the 90-day period prescribed by Rule 13(1), Rules of the United States
Supreme Court, which ends on Tuesday, October 13, 2020, Petitioner submits
his pro se Petition for Writ of Certiorari. This Court has jurisdiction pursuant to
28 U.S.C. § 1254(1). The Petition is timely filed1 pursuant to 28 U.S.C.
§ 2101(c), Rule 13.1, and Rule 30.1.
1. Unless otherwise provided by law, a petition for a writ of
certiorari to review a judgment in any case, civil or criminal,
entered by a state court of last resort or a United States court
of appeals (including the United States Court of Appeals for
the Armed Forces) is timely when it is filed with the Clerk of
this Court within 90 days after entry of the judgment. A
petition for a writ of certiorari seeking review of a judgment
of a lower state court that is subject to discretionary review by
the state court of last resort is timely when it is filed with the
Clerk within 90 days after entry of the order denying
discretionary review.
Rule 13.1 of the Rules of the Supreme Court of the United States.
1. In the computation of any period of time prescribed or
allowed by these Rules, by order of the Court, or by an
applicable statute, the day of the act, event, or default from
which the designated period begins to run is not included.
The last day of the period shall be included, unless it is a
Saturday, Sunday, federal legal holiday listed in 5 U.S.C.
§ 6103, or day on which the Court building is closed by order
of the Court or the Chief Justice, in which event the period
shall extend until the end of the next day that is not a
1

A document is timely filed if it is received by the clerk
within the time specified for filing; or if it is sent to the
Clerk through the United States Postal Service by first-class
mail (including express or priority mail), postage prepaid,
and bears a postmark, other than a commercial postage
meter label, showing that the document was mailed on or
before the last day for filing; or if it is delivered on or before
the last day for filing to a third-party commercial carrier for
delivery to the Clerk within 3 calendar days.

Rule 29(2), Rules of the Supreme Court of the United States.
-2-

Saturday, Sunday, federal legal holiday, or day on which the
Court building is closed.
Rule 30.1 of the Rules of the Supreme Court of the United States.
Here, the 90th day falls on a Sunday, 10/11/2020; the following Monday is
a federal holiday, Columbus Day, 10/12/2020; the following Tuesday,
10/13/2020, is the next day that is not a day on which the Court building is
closed.
CONSTITUTIONAL PROVISIONS INVOLVED
The Fourteenth Amendment to the U. S. Constitution, which has been
held to incorporate the Fifth and Sixth Amendments, provides:
No State shall make or enforce any law which shall abridge
the privileges or immunities of citizens of the United States;
nor shall any State deprive any person of life, liberty or
property, without due process of law; nor deny to any person
within its jurisdiction the equal protection of the laws.
The Fifth Amendment to the United States Constitution provides, in
pertinent part:
No person shall be ..., nor be deprived of life, liberty, or
property, without due process of law....
The Sixth Amendment to the United States Constitution provides, in
pertinent part:
In all criminal prosecutions, the accused shall enjoy the
right ... to have the Assistance of Counsel for his
defense.

-3-

INTRODUCTION
This case presents the Court with the issue of whether the virtually
complete denial of representation at every stage of state court criminal
proceedings, including the refusal to investigate evidence of actual innocence
presented to a defendant’s counsel, denial of advice about fundamental
constitutional rights critical to decisions to be made, denial of trial — twice —
and unquestionably unconstitutional sentencing constitutes an alternative form
of miscarriage ofjustice that excuses the untimely filing of a federal petition for
habeas corpus relief.
STATEMENT OF THE CASE
In CR 2007-155558, Petitioner was convicted by plea agreement.2
Atthe state court proceeding — the first bench trial in CR2007-155558 —
for determination of guilt on the underlying offenses — i.e., the 02/10/2009
Change of Plea Hearing, Petitioner’s attorney Joseph Saienne initially provided
the factual basis for the offenses.

See Reporter’s Transcript, 12/10/2009

2
Two Trials, One for Guilt, One for Determination of
Aggravating Factors. The first trial in this case — for a determination
of guilt — was a bench trial with a stipulated outcome of guilt based on
statements / testimony by Petitioner on the record of the proceedings,
pursuant to an unconstitutionally-induced plea agreement. Petitioner
contends that the 02/10/2009 Change of Plea Hearing was in fact a
bench trial with a stipulated outcome of guilt, based upon the signed
statement by Petitioner that was accepted in open court (referred to herein
as Petitioner’s state court Plea Agreement, found at USDC Habeas
Appendix Item 1). The second trial in this case — for the determination
of aggravating factors that subjected Petitioner to sentencing greater
than the statutorily established presumptive term — was again a
bench trial, at which Petitioner (1) did not testify and (2) did not
make any verbal or written admissions for purposes of sentencing.
-4-

(USDC Habeas Appendix Item 2), from page 13, line 17, to page 14, line 21.
The defense attorney’s factual basis for the plea as stated on the
record contained no statement of fact, factual allegation, or factual admission
by Petitioner constituting an aggravating factor for purposes of sentencing.
See USDC Habeas Appendix Item 2.
The

signed

statement

by

Petitioner

that

was

accepted

in

open court (referred to herein as Petitioner’s state court Plea Agreement,
found at USDC Habeas Appendix Item 1) contained no statement of fact, factual
allegation, or factual admission by Petitioner constituting an aggravating
factor, and contained no stipulated aggravating factor for purposes of sentencing.
See USDC Habeas Appendix Item 1, at page 2, paragraph # 2 (stipulation).
At the second trial — for determination of aggravating factors and
sentencing — Petitioner did not stipulate to or testify about any fact/factor to be
used by the Court to impose an aggravated term of imprisonment and did
not testify about or admit any aggravating fact or factor for purposes of
sentencing.
Petitioner’s trial level attorney failed to inform Petitioner of any
constitutional rights, obligations, and requirements associated with aggravating
factors or aggravated terms of imprisonment at any time during the entire period
of trial court representation. See Personal Affidavit of Petitioner (USDC Habeas
Appendix Item 3), at f 7.
Petitioner’s trial level attorney knowingly induced Petitioner to agree to
-5-

an unconstitutional (and therefore invalid) decision to agree to the state’s offered
plea agreement after refusing to investigate evidence of actual evidence
presented to him by Petitioner. Petitioner’s trial level attorney knew that the
plea agreement (USDC Habeas Appendix Item 1) contained no language
expressly informing Petitioner that, with regard to the fundamental
constitutional right to a jury trial for the determination of aggravating factors,
the constitutionally required standard of proof was that of beyond a
reasonable doubt. See USDC Habeas Appendix Item 1, at page 2, second
sentence of last paragraph. Further, knowing that the plea agreement (USDC
Habeas Appendix Item 1) contained no such language, Petitioner’s trial level
attorney failed to inform Petitioner of those constitutional rights. See Personal
Affidavit of Petitioner (USDC Habeas Appendix Item 3), at f 7.
Trial level counsel failed to inform Petitioner that he had a right to a jury
trial for aggravating factors using the constitutionally required standard of proof
of beyond a reasonable doubt. See USDC Habeas Appendix Item 3.
The significance ofthe constitutional errors identified above was amplified
by the fact that Petitioner’s trial level attorney knew that the plea agreement
expressly required Petitioner to stipulate to an aggravated term of imprisonment
— without identifying any aggravating factor that would subject Petitioner to
sentencing greater than the presumptive term and without informing Petitioner
that he had a federal constitutional right to have any aggravating factor
determined by the standard of proof of beyond a reasonable doubt. See USDC
-6-

Habeas Appendix Item 2 (Change of Plea Proceeding), at page 9, lines 4-6
(“/« Paragraph 2, the stipulation is on Count 26 that you shall be sentenced to
the Department of Corrections for an aggravated term to range anywhere
from 20 to 24 years”).
The significance of the constitutional error identified above was heightened
even more by the fact that the transcript of the change of plea proceeding reflects
the Court asking Petitioner in front of defense counsel if Petitioner understood
and agreed to waive a number of constitutional rights associated with entering
into the plea agreement and its stipulated aggravated sentencing, while the court
simultaneously (1) did not inform Petitioner that an aggravated term of
imprisonment could not be imposed in the absence of one or more properly
determined aggravating factors, (2) did not identify any aggravating factor that
would justify an aggravated sentence, and (3) did not inform Petitioner of his
constitutional right to have any aggravating factor determined by the standard of
proof of beyond a reasonable doubt. See USDC Habeas Appendix Item 2, from
page 10, line 20 to page 11, line 18.
By pleading guilty, Petitioner waived his statutory right to a direct appeal
but retained his state constitutional right to an appeal, and he therefore also
retained federal constitutional protection for his first appeal as of right. Ariz.
Const, art. 2, § 24 guarantees criminal defendants “the right to appeal in all
cases.” Pursuant to State v. Ward, 211 Ariz. 158, 118 P.3d 1122, 1125-26
(App.2005,Div.l) (as amended 09/08/2005),
-7-

rev.

denied (04/20/2006)

and State v. Cleere, 213 Ariz. 54, 138 P.3d 1181, 1184 n. 2 (App.2006,Div.2),
rev. denied (June 27, 2006), a Rule 32 “of-right” proceeding3 is a form of
“direct review’'' rather than collateral review, and that “of-right” proceeding is
“the functional equivalent ofa direct appeal.” Further, pursuant to Summers v.
ScAriro, 481 F.3d 710, 716-17, (9th Cir.2007), Arizona's Rule 32 “of-right”
proceeding for plea-convicted defendants is a form of direct review within the
meaning of 28 U.S.C. § 2244(d)(1)(A).
Even though requested to do so, Petitioner's attorney of record did not file
a notice of post conviction relief or a petition for post conviction relief. Petitioner
suffered ineffective assistance of counsel at time of the collateral proceeding for
failure of counsel to file for post conviction relief upon request from Petitioner,
even though requested to do so.
In the United States District Court, the Fifth, Sixth, and Fourteenth
Amendment rights were directly and expressly raised by Petitioner’s filing of a
federal habeas corpus petition. The Petition was summarily dismissed by the
District Court Judge by Order adopting the Magistrate Judge’s Report and
Recommendation. Petitioner was denied habeas corpus relief and denied a
certificate of appealability by the District Court. In the Ninth Circuit Court of
Appeals, Petitioner was summarily denied a certificate of appealability.
This Petition follows.

3
Rule 32, Arizona Rules of Criminal Procedure, governing state
court collateral challenges; now Rule 33 for pleading defendants.
-8-

REASONS FOR GRANTING THE WRIT
I.

REASONABLE JURISTS—INCLUDING THE JUSTICES OF
HAVE
THE UNITED STATES SUPREME COURT
ALREADY HELD THAT DENIAL OF A JURY TRIAL AND
DENIAL OF THE RIGHT TO THE CONSTITUTIONALLY
REQUIRED STANDARD OF PROOF OF BEYOND A
REASONABLE DOUBT MAKES A "SUBSTANTIAL
SHOWING OF THE DENIAL OF A CONSTITUTIONAL
RIGHT;" AND THEREFORE THE PRESENTATION OF
THOSE GROUNDS WAS AT LEAST “ADEQUATE TO
DESERVE ENCOURAGEMENT TO PROCEED FURTHER”
A certificate of appealability may be granted only on an issue-by-issue

basis. Morris v. Woodford, 229 F.3d 775, 779 (9th Cir. 2000). Petitioner
presented five issues to the United States District Court and to the 9th Circuit
Court of Appeals. In order for a habeas petitioner to obtain a certificate of
appealability, an appellant must make a "substantial showing of the denial
of a constitutional right" to the Court. 28 U.S.C. § 2253(c)(2). A litigant
successfully satisfies this standard by demonstrating "that reasonable jurists
could debate whether (or, for that matter, agree that) the petition should
have been resolved in a different manner or that the issues presented were
adequate to deserve encouragement to proceedfurther." Miller-El v. Cockrell,
537 U.S. 322, 123 S.Ct. 1029, 1039 (2003). Accordingly, a reviewing court is
to limit its examination to a threshold inquiry into the underlying merit of
the claims. Miller-El, 537 U.S. at 327.
The appellate court “reviews mixed questions of law andfact... de novo
and pure questions of law de novo" Mayfield v. Woodford, 270 F.3d 915,

-10-

922 (9th Cir.2001) (en banc). The inquiry is not a detailed one, nor is the standard
difficult to meet:
...[W]hen a habeas applicant seeks permission to initiate
appellate review of the dismissal of his petition, the court of
appeals should limit its examination to a threshold inquiry
into the underlying merit of his claims. Slack v. McDaniel,
529 U.S. 473, 481 (2000). Consistent with our prior
precedent and the text of the habeas corpus statute, we
reiterate that a prisoner seeking a COA need only
demonstrate "a substantial showing of the denial of a
constitutional right.” 28 U.S.C. § 2253(c)(2). A petitioner
satisfies this standard by demonstrating that jurists of
reason could disagree with the district court's resolution of his
constitutional claims or that jurists could conclude the issues
presented are adequate to deserve encouragement to proceed
further. Slack, supra, at 484. Applying these principles to
petitioner's application, we conclude a COA should have
issued.
Miller-El v. Cockrell, 537 U.S., at 327.
The determination to be made, in accord with the holding of Miller-El,
supra, requires an overview of the claims presented in the habeas petition and
a general assessment of their merits. The question is whether the resolution of
Petitioner’s claim was debatable amongst jurists of reason.
This threshold inquiry does not require full consideration of the
factual or legal bases adduced in support of the claims. A certificate does not
require a showing that the appeal will succeed. Accordingly, a court should
not decline the application for a certificate merely because it believes the
applicant will not demonstrate an entitlement to relief. The holding in Slack,
supra, would mean very little if appellate review were denied because the

-11-

prisoner did not convince a judge, or, for that matter, three judges, that he or
she would prevail. A certificate properly will issue in some instances where
there is no certainty of ultimate relief.

After all, when a certificate of

appealability is sought, the whole premise is that the prisoner has already
failed to obtain relief in the District Court. The certificate of appealability inquiry
asks only if the District Court's decision was debatable, not incorrect.
II.

PETITIONER’S ASSERTION OF ERRORS IN
DISTRICT COURT’S ORDER AND JUDGMENT
A.

THE

Overly Rigid Approach to Certificate of Appealability
Rejected

In Holland v. Florida,560 U.S. 631 (2010), this Court remanded a case to
the federal court of appeals to resolve a mixed question of fact and law
implicating both ineffective assistance of counsel and the concept of equitable
tolling. Following the state court criminal conviction and appeal for the
petitioner in Holland, the lower federal court denied habeas corpus relief,
and the appellate federal court ruled that even gross negligence on the part
of the attorney representing the petitioner in the state court system would
not constitute grounds for the relief the petitioner sought.
This Court held that the District Court’s determination of diligence and the
appellate court’s use of an overly rigid approach combined to erroneously
preclude judicial review and consideration that was demanded by applicable
federal statutes and constitutional guarantees.
In Banks v. Dretke, 540 U.S. 668, 124 S.Ct. 1256 (2004), this Court
-12-

held that a petitioner was entitled to a Certificate of Appealability that had been
denied by the Fifth Circuit Court of Appeals in a case arising from the United
States District Court for the Eastern District of Texas. The Banks v. Dretke
Court stated:
To obtain a certificate of appealability, a prisoner must
“demonstrat[o\ that reasonable jurists could disagree with
the district court's resolution of his constitutional claims
or that jurists could conclude that the issues presented
are adequate to deserve encouragement to proceedfurther.'''1
Miller-El v. Cockrell, 537 U.S. 322, 327, 123 S.Ct. 1029,
154 L.Ed.2d 931 (2003). ...[T]his case surely fits that
description. A certificate of appealability, therefore, should
have issued.
Banks v. Dretke, supra (stating conclusion).
1.

The Issue of the Timeliness of the Habeas Petition

Petitioner’s Objection stated quite clearly that the Petition was untimely,
but also argued that the untimely petition was submitted pursuant to this Court’s
miscarriage of justice exception to untimeliness.
United States District Court Judge David Campbell ruled that the
miscarriage of justice exception was limited to one and only one instance,
namely, a claim of actual innocence, and ruled that Petitioner failed to make
a credible showing of actual innocence. See 08/05/2019 R & R (Doc.17),
at page 4, lines 5-8.
Petitioner presented the District Court with the merits of his claim of
a fundamental miscarriage of justice his habeas Petition, in his habeas Reply,
and in his Objection to the R & R, which was subsequently summarized by U.S.
-13-

District Court Judge David Campbell as follows:
Petitioner demonstrated with clarity that he was denied
a jury trial in the state court system, knowingly induced to
enter a plea of guilty without investigation of specific
information provided by Petitioner to his defense attorney,
duped into unwitting (and therefore unconstitutional) waiver
of fundamental constitutional rights, subjected to aggravated
sentencing without constitutionally acceptable determination
of aggravating factors, and ignored when he requested
appellate review.
Petitioner argues that the claim of structural error, the
challenge to aggravated sentencing, the challenge to the plea
stipulation to an aggravated term of imprisonment, and
the claim of an involuntary plea is sufficient to invoke the
miscarriage ofjustice exception to the standard time frame for
filing a federal habeas petition.
08/05/2019 R & R (Doc.17), at page 6, lines 11-17.
a)

The Miscarriage of Justice Exception to the
Untimeliness of a Petition

Out of respect for finality, comity, and the orderly
administration of justice, a federal court will not entertain
a procedurally defaulted constitutional claim in a petition
for habeas corpus absent a showing of cause and prejudice to
excuse the default. We have recognized a narrow exception
to the general rule when the habeas applicant can demonstrate
that the alleged constitutional error has resulted in the
conviction of one who is actually innocent of the underlying
offense or, in the capital sentencing context, of
the aggravating circumstances rendering the inmate eligible
for the death penalty. Murray v. Carrier, All U.S. 478, 106
S.Ct. 2639 91 L.Ed.2d 397 (1986); Sawyer v. Whitley, 505
U.S. 333, 112 S.Ct. 2514, 120 L.Ed.2d 269 (1992).
Dretke v. Haley, 541 U.S. 386 (2004), 541 U.S. 386, 388 (2004).
[T]he Schlup standard is demanding. The gateway
should open only when a petition presents “evidence of
innocence so strong that a court cannot have confidence in
•14-

the outcome of the trial unless the court is also satisfied
that the trial was free ofnonharmless constitutional error. » 4
McQuiggin v. Perkins, 569 U.S. 383, 401 (2013).
The argument that Petitioner presented below and now presents in this
Court is that the state court criminal proceedings presumptively precluded
presentation of evidence of actual innocence and was conducted in a manner
that was the polar opposite of being 'free of nonharmless constitutional error,”
in that a) Petitioner’s trial level attorney knowingly induced Petitioner to agree
to an unconstitutional (and therefore invalid) decision to agree to the state’s
offered plea agreement after refusing to investigate evidence of actual evidence
presented to him by Petitioner; b) the plea agreement contained no language
informing Petitioner that, with regard to the fundamental constitutional right
to a jury trial for the determination of aggravating factors, the constitutionally
required standard ofproof was that of beyond a reasonable doubt; c) knowing that
the plea agreement contained no such language, Petitioner’s trial level attorney
failed to inform Petitioner of those constitutional rights; d) trial level counsel
failed to inform Petitioner that he had a right to a jury trial for aggravating factors
using the constitutionally required standard of proof of beyond a reasonable
doubt; e) trial level attorney knew that the plea agreement expressly required
Petitioner to stipulate to an aggravated term of imprisonment — without
identifying any aggravating factor that would subject Petitioner to sentencing
The McQuiggin Court’s reference to “the Schlup standardwas
to Schlup v. Delo, 513 U.S. 298 (1995).
-15-

greater than the presumptive term and without informing Petitioner that he
had a federal constitutional right to have any aggravating factor determined by
the standard of proof of beyond a reasonable doubt fin Paragraph 2,
the stipulation is on Count 26 that you shall be sentenced to the Department
ofCorrections for an aggravated term to range anywherefrom 20 to 24 years”);
and f) the court did not inform Petitioner that an aggravated term of
imprisonment constitutionally could not be imposed in the absence of one or
more properly determined aggravating factors, did not identify any aggravating
factor that would justify an aggravated sentence, and did not inform Petitioner
of his constitutional right to have any aggravating factor determined by the
standard of proof of beyond a reasonable doubt.
b)

It Is Correct that Martinez v. Ryan, 566
U.S. 1 (2012) is Inapplicable to the
Petition in this Case, but Petitioner
Cited Martinez for an Ancillary
Purpose

Petitioner cited the District Court to Martinez v. Ryan, 566 U.S. 1 (2012),
to address the possibility that the District Court Judge might make a separate
finding, i.e., that Petitioner failed to exhaust state remedies and therefor
federal habeas relief was unavailable. The citation and invocation ofMartinez v.
Ryan eliminated that possibility, because Martinez excuses the failure to
exhaust state remedies {i.e., the procedural default). The District Judge’s Order
expressly addressed Petitioner’s argument regarding the exhaustion of state
remedies (uYokois notes that he cited Martinez to address the possibility that
-16-

this Court ‘might make a separate finding that [he] failed to exhaust state
remedies and therefor federal habeas relief is unavailable. ’ Doc.21 at 5.” See
02/10/2020 Order (Doc.28), at page 4, lines 9-11. Judge Campbell expressly
stated that “The Court makes no such finding.” Id., at line 11.
B.

The District Court’s Conclusions Were Incorrect

Because the 9th Circuit Court of Appeals issued an Order summarily
denying Petitioner a Certificate of Appealability, it is necessary for this Court to
examine the claims asserted in the United States District Court.
In this case, the Magistrate Judge filed a Report and Recommendation
(“R & R”), recommending that habeas corpus relief be denied and the Petition be
dismissed. See 08/05/2019 R & R (Doc.17). Petitioner filed an Objection to the
R & R (Doc.21). Upon review of the R & R and Petitioner’s Objection, District
Court Judge David Campbell issued his 02/10/2020 Order (Doc.28) (1) adopting
the R & R, (2) denying a Certificate of Appealability (“COA”) and (3) directing
final judgment.
The Magistrate Judge had made three findings. First, the Magistrate found
that Martinez v. Ryan, 566 U.S. 1 (2012) was inapplicable. See R & R (Doc.17),
at page 6, lines 22-23. That matter has been addressed immediately above.
Second, the Magistrate found that the Petition was untimely and should be
dismissed on that basis in the absence of equitable tolling. See R & R (Doc.17),
at page 4, lines 16-24. The challenge to that finding was presented in Petitioner’s
Objection in the District Court, his COA motion in the 9th Circuit Court of
-17-

Appeals, and in this Petition for Certiorari in this Court. Third, the Magistrate
found that:
While Petitioner's conclusory arguments may challenge
the plea process, fairness of his sentence, and the adequacy of
the procedures that led to his sentence, Petitioner fails to
argue or point to any new reliable evidence of actual, factual
innocence. Therefore, Petitioner has not demonstrated that
there is evidence of actual innocence such that the
fundamental miscarriage of justice exception entitles him to
review of his time-barred claims.
R & R (Doc.17), at page 8, lines 1-5.
1.

Petitioner’s Presentation
“Conclusory”

Was

Not

Merely

The Magistrate Judge characterized Petitioner’s presentation of his claims
for habeas corpus relief under the fundamental miscarriage of justice exception
as “conclusory.” See R & R (Doc.17), at page 8, lines 1-2 (“While Petitioner's
conclusory arguments....”). Even a cursory look at the averments of the Petition
in this matter will confirm that Petitioner’s claims in the U.S. District Court
were grounded in facts and those facts are supported by the record of the
state court proceedings and by the Appendix to the habeas petition, which
consisted of the plea agreement (Habeas Appendix Item 1), the reporter’s
transcript of the change of plea proceeding (Habeas Appendix Item 2), the
personal affidavit of the Petitioner (Habeas Appendix Item 3), and the reporter’s
transcript of the sentencing hearing (Habeas Appendix Item 4).
Petitioner demonstrated with clarity that he was denied a jury trial in the
state court system, knowingly induced to enter a plea of guilty without
-18-

investigation of specific information provided by Petitioner to his defense
attorney, duped into unwitting (and therefore unconstitutional) waiver of
fundamental constitutional rights, subjected to aggravated sentencing without
constitutionally acceptable determination of aggravating factors, and ignored
when he requested appellate review.
2.

Petitioner's Presentation of Fundamental Flaws

In his USDC Petition seeking federal habeas relief, Petitioner expressly
acknowledged a distinction between traditional clear evidence of actual
innocence on the one hand, and Petitioner’s clear demonstration of fundamental
flaws in the state criminal justice process as applied to him at every stage of
the state court criminal proceedings in this case.
The fundamental flaws that permeated the entire case at the state court
level included (1) an unknowing and uninformed inducement to entering an
admission of guilt without investigation of evidence of actual innocence,
(2) imposition of a sentence that exceeded the statutory maximum in the absence
of either a) a knowing admission of aggravating facts or b) the formal
determination of aggravating factors by the standard of beyond a reasonable
doubt, and (3) the utter absence of effective assistance of counsel at every stage
of the state court criminal proceedings.
The U.S. District Court Habeas Petition in this matter asserted that
Petitioner had provided to his trial level attorney a set of handwritten notes
identifying exculpatory facts clearly undermining the State’s claims of guilt
-19-

and the State’s theory of the case

however, Petitioner’s trial level attorney

accepted the notes but adamantly refused to engage in discussion with Petitioner
of any of the facts set forth by Petitioner in the notes. The attorney, who had
been retained by Petitioner’s spouse, informed Petitioner that he was not
interested in discussing jury trial representation, only representation at a
bench trial with a stipulated outcome of guilt (plea), based on his contract for
representation.

This representation constituted ineffective assistance of

counsel at time of trial and simultaneously constituted the basis for a claim
of actual innocence:
15.b. GROUND TWO: Violation of Petitioner’s
14th Amendment Right to Due Process of Law as a Result
of Ineffective Assistance of Counsel (IAC) at Time of First
Trial (as to Guilt on Underlying Offenses) for Failure
to Investigate Petitioner’s Innocence.
15.b.l. Facts Material to Ground Two (IAC at
Time of First Trial for Failure to Investigate Petitioner’s
Innocence):
15.b.l.l. Petitioner’s trial level attorney failed to
investigate Petitioner’s claims of innocence and failed to
investigate the facts Petitioner provided to his trial level
attorney in writing. See Personal Affidavit of Petitioner
(Appendix Item 3), at ^ 5 & 6.
15.b.l.2. Petitioner’s trial level attorney expressly
informed Petitioner that he was not interested in discussing
jury trial representation, but rather representation for
negotiating a plea by which Petitioner would agree to a bench
trial with a stipulated outcome of guilt. Petitioner asserts that
the plea agreement in his case amounted to bench trial with a
stipulated outcome of guilt based on Petitioner’s statements
under oath in open court — which is still a trial. See
Personal Affidavit of Petitioner (Appendix Item 3), at f 4.
•20-

15.b.l.3. Petitioner’s trial level attorney accepted
Petitioner’s hand-written notes identifying exculpatory facts
clearly undermining the State’s claims of guilty and theory of
the case, but declined to engage in discussion of any of the
facts set forth by Petitioner in the notes. See Personal
Affidavit of Petitioner (Appendix Item 3), at f 5 & 6.
Petition for Writ of Habeas Corpus (Doc.l), from page 8, line 20, to page 9,
line 12 (bold print in original).
Put succinctly, Petitioner was (1) subjected to ineffective assistance of
counsel that resulted in the denial of a jury trial, (2) subjected to ineffective
assistance of counsel at time of bench trial that resulted in a stipulated outcome
of guilt, and (3) subjected to ineffective assistance of counsel resulting in the
denial of both a jury trial and a bench trial for the determination of the facts
that increased Petitioner’s sentencing exposure from the presumptive term of
17 years applicable to the prison offense to a statutorily aggravated range of
20 to 24 years (the actual sentence was 22 years).
3.

Petitioner’s Presentation Addressed an Alternative
Form of Clear Evidence of Actual Innocence,
Which Included a Claim of Structural Error

Petitioner argued that the claim of structural error, the challenge to
aggravated sentencing, the challenge to the plea stipulation to an aggravated
term of imprisonment, and the claim of an involuntary plea, in combination, were
sufficient to invoke the miscarriage of justice exception to the standard time
frame for filing a federal habeas petition. In addition, Petitioner argued structural
error in the Petition, as follows:

•21-

Tf 18 Because there was no waiver, we have to
determine whether the error was trial error or structural error.
See State v. Henderson, 210 Ariz. 561, 567, f 17, 115 P.3d
601, 607 (2005) (distinguishing between trial error and
structural error); State v. Ring, 204 Ariz. 534, 552, 45, 65
P.3d 915,933 (2003) (same). Trial errors are characterized as
those “ ‘which occur [ ] during the presentation of the case to
the jury, and which may therefore be quantitatively assessed
in the context of other evidence presented.’ ” Ring, 204 Ariz.
at 552, If 45, 65 P.3d at 933 (quoting Arizona v. Fulminante,
499 U.S. 279, 307-08, 111 S.Ct. 1246, 113 L.Ed.2d 302
(1991)). Trial errors are subject to either harmless error or
fundamental error review to determine whether reversal is
warranted. Henderson, 210 Ariz. at 567, f 17, 115 P.3d at
607.
Tf 19 Structural errors, however, are subject to
automatic reversal. See Fulminante, 499 U.S. at 309-10, 111
S.Ct. 1246; see also State v. Hickman, 205 Ariz. 192, 199 n.
7, Tf 29,68 P.3d 418,425 (2003). Structural errors are defined
as those errors which affect the “entire conduct of the trial
from beginning to end.” Fulminante, 499 U.S. at 309-10, 111
S.Ct. 1246. The United States Supreme Court has designated
only a few limited errors as structural, including a
complete failure to provide trial counsel and denial of a
public criminal trial. Ring, 204 Ariz. at 552-53, ^f 46, 65 P.3d
at 933-34. Just as those errors qualify as structural errors, we
find that so too does the complete failure of the trial court to
notify and explain to a defendant the right to a jury trial and
to obtain a knowing, intelligent and voluntary waiver of that
right. Tf 19 See State v. Maldonado, 206 Ariz. 339, 342,112,
78 P.3d 1060, 1063 (App.2003) (stating that the right to
forego a jury trial is reserved to the defendant personally until
a knowing, intelligent, and voluntary waiver). The right to a
jury trial “affect[s] the framework within which the trial
proceeds,” Fulminante, 499 U.S. at 310, 111 S.Ct. 1246, and
the failure to personally advise a defendant of that right
results in a violation of the Arizona and United States
Constitutions.
State v. Stephen Le Noble, 216 Ariz. 180, Tf 18-19, 164 P.3d 686 (App.,2007,
Div.l) (trial for guilt, but also applicable to trial for aggravating factors).
-22-

It seems axiomatic that structural errors for which prejudice is presumed
— e.g., denial of jury trial; invalid waiver of fundamental constitutional rights;
unconstitutional determination of facts required for aggravated sentencing —
constitute a miscarriage of justice:
In this case, the constitutional violations and the intertwining of violations
becomes extremely important. Standing alone, a flawed state court procedure
that does not demonstrate actual innocence would not ordinarily suffice to
qualify for a miscarriage of justice exception to untimeliness. However, in this
case, the intertwining of the violations does suffice:
To be sure, a habeas petitioner need not prove his innocence
beyond all doubt in order to reach the safe haven of the
miscarriage exception: it suffices if the petitioner can show a
probability that a reasonable jury would not have convicted
but for the constitutional violation.
Burks v. Dubois, 55 F.3d 712, 718 (1995), citing Murray v. Carrier, All U.S.
478, 496 (1986).
Here, Petitioner shows more than an error in proceedings where there
might have been a difference in the outcome; Petitioner’s claim involves the
failure of an attorney to investigate specific evidence of innocence, combined
with complete denial of a trial on the elements of the offense that subjected
him to sentencing greater than allowed pursuant to the plea of guilty. There was
an unknowing and uninformed inducement to entering an admission of guilt
on the part of trial level counsel, followed by imposition by the court of a
sentence that exceeded the statutory maximum — in the absence of either
-23-

knowing admission of aggravating facts or formal determination of any
aggravating factor by the standard of beyond a reasonable doubt. Petitioner
suffered the utter absence of effective assistance of counsel and failure of due
process of law by the judge at every stage of the state trial court criminal
proceedings.
Petitioner points out that this Court has recently spoken, in Jae Lee v.
United States, 582 U.S.__, 137 S.Ct. 1958 (2017). There, the Court drew a sharp
contrast between two types of ineffective assistance, separating for increased
scrutiny those instances in which the deficient performance arguably led not to
a judicial proceeding of disputed reliability, but rather to the complete forfeiture
of a proceeding itself. The Court held that:
When a defendant alleges his counsel's deficient performance
led him to accept a guilty plea rather than go to trial, we do
not ask whether, had he gone to trial, the result of that trial
“would have been different” than the result of the plea
bargain. That is because, while we ordinarily “apply a
strong presumption of reliability to judicial proceedings,”
“we cannot accord” any such presumption “to judicial
proceedings that never took place.” (Internal citations
omitted).
We instead consider whether the defendant was
prejudiced by the “denial ofthe entire judicial proceeding...
to which he had a right ”
Jae Lee v. United States, 582 U.S. at__, 137 S.Ct. at 1965 (bold print added).
Here, Petitioner was constitutionally entitled to a trial by a jury on any
aggravating factors the State of Arizona might assert to subject Petitioner to
sentencing greater than the presumptive term. Petitioner was not informed of that
-24-

right by the Court, the State, or his defense counsel. Petitioner was induced to
enter a plea of guilty that subjected him to a stipulated aggravated sentence,
thereby unknowingly waiving his federal constitutional rights to a jury trial and
to the right to a determination of aggravating factors by proof beyond a
reasonable doubt.
Further, prejudice is unmistakable—Petitioner was subjected to a sentence
greater than that constitutionally permissible on the basis of his plea of guilty,
and this occurred solely because he was denied the jury trial to which he
was entitled under the federal constitution. Under the Court’s jurisprudence as
set forth in Jae Lee v. United States, supra, Petitioner was entitled to federal
habeas corpus relief.
For the miscarriage of justice exception to untimeliness to apply,
Petitioner need not prove his innocence beyond all doubt in order to reach the
safe haven of the miscarriage exception: it suffices that he can demonstrate
beyond a doubt that he was denied the entire proceeding at which the trial on
aggravating factors were to be determined by a jury (i.e.,Apprendf s “functional
equivalent of elements of a greater offense”).5 Prejudice cannot be more clear.
Here, the combination of multiple constitutional violations, beginning
with the failure to investigate specific information supporting a claim of
innocence and continuing through a monstrous series of failures to inform
Petitioner of fundamental constitutional rights, ending with unknowing waiver
Apprendi v. New Jersey, 530 U.S. 466 (2000).
-25-

and unconstitutional sentencing, constitutes a manifest miscarriage of justice
that even included denial of a jury trial for the very facts that subjected
Petitioner to aggravated sentencing.
Here, the actual innocence is for BOTH the sentence AND the crime
charged, because Petitioner was sentenced for a greater offense than the one
charged in the plea agreement and his conviction for that greater offense was
obtained by subterfuge and ineffective assistance of counsel. He was denied a
jury trial on the greater offense and denied the constitutionally required standard
of proof of beyond a reasonable doubt. He was denied the entire set of due
process protections at which he could demonstrate his innocence of that greater
offense. This is not merely a procedural error; it is a fundamental miscarriage of
justice, to eliminate without knowledge or consent the entire proceeding
prescribed by the constitution for conviction and sentencing.
CONCLUSION
Petitioner’s trial level counsel did not inform Petitioner of essential
constitutional rights. The plea agreement did not inform Petitioner of those
rights. The change of plea court did not inform the defendant of those rights. As
a result, Petitioner unknowingly was induced to enter a plea bargain that and
implicitly waived constitutional rights of which he never was informed. When
he was sentenced, Petitioner received an aggravated term of imprisonment
pursuant to an unadvised stipulation obtained without informing him of
associated constitutional rights. When Petitioner sought direct review, his
-26-

counsel failed to file essential paperwork.
WHEREFORE, based upon the foregoing, Petitioner respectfully requests
this Court issue an Order reversing the 9th Circuit Court of Appeals denial of a
Certificate of Appealability (and allow Petitioner to file an appeal of the District
Court decision) and /or summarily reverse the District Court’s summary denial
of relief (by Ordering that the District Court conduct an evidentiary hearing).
Respectfully Submitted this ^

day of October, 2020.

Douglas Yokois
Eyman Complex, SMU-1 West
P.O. Box 4000
Florence, Arizona 85132
Petitioner In Propria Persona

-27-

